<html>
<title> - DEMANDING ACCOUNTABILITY: THE ADMINISTRATION'S RECKLESS RELEASE OF TERRORISTS FROM GUANTANAMO</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                       DEMANDING ACCOUNTABILITY:
  THE ADMINISTRATION'S RECKLESS RELEASE OF TERRORISTS FROM GUANTANAMO

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 7, 2016

                               __________

                           Serial No. 114-203

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE
20-652PDF                       WASHINGTON : 2016                           
                                
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8bfa8b798bbadabacb0bdb4a8f6bbb7b5f6">[email&#160;protected]</a>  
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Lee Wolosky, Special Envoy for Guantanamo Closure, U.S. 
  Department of State............................................     5
Mr. Paul M. Lewis, Special Envoy for Guantanamo Detention 
  Closure, U.S. Department of Defense............................    13

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Lee Wolosky: Prepared statement..............................     8
Mr. Paul M. Lewis: Prepared statement............................    15

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    51
Written responses from Mr. Lee Wolosky to questions submitted for 
  the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    55
  The Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    56

 
                       DEMANDING ACCOUNTABILITY:
                     THE ADMINISTRATION'S RECKLESS
                 RELEASE OF TERRORISTS FROM GUANTANAMO

                              ----------                              


                         THURSDAY, JULY 7, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    Today we welcome back the Obama administration's top 
officials for closing the detention center at Guantanamo Bay. 
In March, these two gentlemen appeared before the committee to 
discuss the administration's proposal to relocate the prison 
and its detainees to the continental United States, as well as 
the process of releasing individuals to foreign countries.
    Much of the news from that hearing surrounded Mr. Lewis' 
revelation that, in his words, ``unfortunately, there have been 
Americans that have died because of Guantanamo detainees.'' 
And, indeed, last month the Washington Post reported that the 
administration believes that at least 12 detainees released 
from the Guantanamo facility have since attacked U.S. or allied 
forces in Afghanistan, killing about a half dozen Americans.
    That was startling enough. But it is particularly 
disturbing that--upon close examination--these witnesses made 
statements to the committee that are inconsistent with the 
documents and inconsistent with information that the 
administration has supplied the committee under the law.
    Specifically, the committee asked whether the Department of 
Defense ever knowingly transferred a detainee to a country that 
did not exhibit an ability to substantially mitigate the risk 
of recidivism or maintain custody or control of that 
individual. Mr. Lewis and Mr. Wolosky assured committee members 
that it had not. Yet numerous intelligence reports provided by 
the administration suggest that their answers were inaccurate: 
In fact, the Defense Department had done so on numerous 
occasions.
    The Secretary of State has the sole responsibility to 
negotiate transfers, including agreements to monitor released 
detainees. Under the law, Congress regularly receives 
information from the intelligence community on the return to 
terrorism rate of individuals released to foreign countries as 
well as assessments of a country's ability to prevent 
terrorists from returning to the fight.
    Simply put, many countries just aren't up to the job. And a 
diplomatic agreement to do the job isn't worth the paper it is 
written on if a country does not have the resources, does not 
have the training to keep committed terrorists from returning 
to the battlefield.
    Yet the administration has sent Guantanamo terrorists to 
these countries anyway. To then deceive this committee and the 
American people is deeply disturbing, and when given the 
opportunity to correct the record for the committee, they 
ignored us.
    I appreciate that the administration finally responded on 
Tuesday. But it shouldn't take the calling of a hearing to 
elicit a return letter, especially on something as 
consequential as this. This committee has an obligation to 
conduct oversight. While we have differences of opinion over 
Guantanamo policy, I don't think anyone here finds the 
administration's dismissiveness acceptable.
    And should anyone think the committee's concerns are 
theoretical, and specifically I was pressing on these 
terrorists who had been transferred to Uruguay, it is not 
theoretical because now Jihad Diyab, who is an al-Qaeda-linked 
terrorist, was sent from Guantanamo to Uruguay in December 
2014.
    We sounded the alarm about Uruguay's lack of legal 
framework. We explained to you about the critical resources to 
prevent travel outside the country--that that was lacking in 
the case of Uruguay. And so what is the result?
    The result is last month, Jihad Diyab disappeared from 
Uruguay. His current whereabouts are unknown, and this was 
after Mr. Wolosky testified to us in March that ``we are 
confident that the Government of Uruguay is taking appropriate 
steps to substantially mitigate the risk'' of this former 
detainee and others sent to Uruguay. Yesterday, CNN, citing 
U.S. officials, reported that this terrorist was last spotted 
in Venezuela. He is believed to be headed back to Syria or 
Yemen.
    We have been awaiting answers to the committee's inquiry. 
But while I've been patient, the President has been in a rush, 
seemingly willing to release Guantanamo terrorists to wherever 
he can.
    I wish we were not here today. Holding another Guantanamo 
hearing this week was not my intention. But he is loose and my 
patience has run out.
    And I now turn to the ranking member.
    Mr. Engel. Thank you, Mr. Chairman, and Mr. Wolosky and Mr. 
Lewis, welcome back and thank you for your service.
    Last time you gentlemen were here I made my views on the 
Guantanamo Prison pretty clear and I would ask that my opening 
statement from that hearing be included as part of the record 
of this hearing.
    Chairman Royce. Without objection.
    Mr. Engel. To recap, the prison should be closed. National 
security experts of both parties agree with me. In fact, I have 
a letter here from 36 retired generals and admirals calling for 
the prison's closure and I ask that it be included in the 
record.
    The prison is a waste of money and a propaganda tool for 
terrorists. End of story, as far as the prison goes. There 
were, however, some issues raised about transferred detainees 
at the last hearing that deserve some follow up and I say 
transferred rather than released because there's an extensive 
process that goes into removing a detainee from the prison and 
sending him to another country.
    It's not as though they are just set loose. But it is 
important to know how exactly are we monitoring transferred 
detainees and assessing the risk they pose. Those are good 
questions.
    But because they deal with intelligence methods we can only 
discuss them in a closed classified setting. My understanding 
is that the administration offered to do just that and that 
offer was rebuffed.
    I hope that after this hearing in a few weeks or so we can 
have a closed classified setting to get answers to some 
questions that you are not really allowed to say here in open 
session.
    So why are we here? The title of today's hearing is 
demanding accountability of the administration's reckless 
release of terrorists from Guantanamo.
    Since we say reckless release, it sounds like people's 
minds are made up and I want to make sure all the facts are on 
the table because I think there's plenty of blame to go all 
around. I think the chairman raises legitimate issues but I do 
think there's plenty of blame to go around.
    First, the vast majority of Guantanamo detainees were 
transferred out of the prison before President Obama took 
office. A total of 780 detainees have been held in Guantanamo.
    During the Bush administration, 500 were transferred out, 
compared to 159 detainees under President Obama. Secondly, 
let's look at the number of transferred detainees who returned 
to the battlefield. The figure 30 percent gets thrown around a 
lot but what goes into that number?
    Turns out it includes the total number of transferred 
detainees that we know for sure have returned to the fight as 
well as those suspected of re-engagement over the entire life 
of the Guantanamo Prison 2001 to present.
    During the Bush years, 2001 to 2008, the rate of suspected 
and confirmed cases of re-engagement was actually higher than 
that, 35 percent, with 21 percent of the cases confirmed and 14 
percent suspected.
    So let me say that again. More than one-third of the 
terrorists that President Bush's administration transferred may 
have returned to the fight. Now let's contrast that with the 
Obama administration.
    Under President Obama, that number, again, totaling 
suspected and confirmed cases, drops to 13 percent. Eight 
percent suspected and just 5 percent confirmed. That 5 percent 
represents seven people.
    Now, I know one person escaping this is one person too 
much. But I just want to have a balanced hearing here because 
if we've already made up our minds and talking about the 
administration being reckless, it doesn't seem to me like we 
are really here to learn anything more.
    I reiterate at most 13 percent of those transfers since 
January 2009 have re-engaged compared to as much as 35 percent 
during the previous administration. The contrast is striking. 
But let's not get lost in the numbers because this is perhaps 
the most important point.
    The transferred detainees who returned to the battlefield 
and killed Americans were let out during the Bush 
administration, not during the Obama administration.
    So if we are going to paint with a broad brush and say 30 
percent of transferred detainees may be going back to the fight 
and killing Americans, we need to take the whole story and put 
it into perspective. The Bush administration racked up that 
average and then some.
    The Obama administration has helped to bring it back down. 
Thirdly, the administration's closure plan would not transfer 
any person who does not meet the most stringent criteria.
    I've heard claims that the remaining detainees are the 
worst of the worst and the administration simply wants to turn 
them loose. That's false.
    Twenty-nine of 79 remaining detainees are cleared for 
transfer. Among them are 22 Yemenis. The administration isn't 
transferring them yet. As a matter of policy we transfer 
detainees to their home countries. But in the case of Yemen the 
government cannot provide adequate security assurances.
    So the administration has pumped the brakes out of an 
abundance of caution. We need to find countries that can 
provide adequate assurances before those 22 are transferred.
    That leaves 50. Some of these are really bad guys. Ten of 
them will stand trial. Another 40 are being legitimately held 
as prisoners of war. But under no circumstances, in my opinion, 
is the Obama administration simply opening the gate and 
releasing dangerous terrorists onto the street.
    Look, Guantanamo is a mess and it always has been. No one 
is blameless. Anyone can cherry pick single cases to paint a 
picture big or small, good or bad. But I think the facts and 
the statistics speak for themselves.
    And I think what we should do after this, instead of having 
the witnesses come and tell us that they can only tell us 
things in a classified briefing, is to spend our time with them 
after this hearing in a few weeks where we could be in a closed 
setting getting to the bottom of this matter.
    Now, the Foreign Affairs Committee obviously has oversight 
on this issue. The hearing last March and today's hearing are 
the only two times that the committee has taken up this issue 
in the nearly 15 years that Guantanamo Prison has been open. So 
since we have our top Guantanamo experts with us today, I hope 
you can give us your opinions on some interesting ideas we've 
recently heard about that prison. I am going to read you a few 
quotes.
    You may recognize them. I'll give you a hint. It's one of 
the candidates running for President. Here's the first:

        ``This morning I watched President Obama talking about 
        Gitmo, Guantanamo Bay, which by the way we are keeping 
        open and we are going to load it up with some bad 
        dudes. We're going to load it up.''

And the second quote:

        ``Torture works, okay, folks. Believe me, it works, and 
        water boarding is your minor form. Some people say it 
        is not actually torture. Let's assume it is. But they 
        ask me the question, what do you think of water 
        boarding? Absolutely fine, but we should go much 
        stronger than waterboarding. We should go much stronger 
        because our country is in trouble.''

    So I just want to say that I read that because, you know, 
some people say they want to expand the Guantanamo Prison and 
torture. I can't think of a worse proposal for our national 
security. These schemes would only harm us with their allies 
and provide ammunition to our adversaries. Mr. Wolosky, Mr. 
Lewis, at some point today maybe we can hear your views on what 
would happen if we went in that direction.
    Again, I hate doing tit for tats but I do think it is not 
really fair to blame the administration for all the 
frustrations we have about Guantanamo when we see that there 
were problems and wrong things done in the previous 
administration as well. So I look forward to listening to you 
and hearing your thoughts and thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    This morning we are pleased to be joined by Special Envoy 
Lee Wolosky, Special Envoy for Guantanamo Closure at the U.S. 
Department of State. Previously, Mr. Wolosky served as the 
Director for Transnational Threats on the National Security 
Council under President Clinton.
    And Mr. Paul Lewis is joining us. We are pleased that he is 
here, Special Envoy for Guantanamo Detention Closure at the 
U.S. Department of Defense. Previously, Mr. Lewis served as 
both the general counsel and the minority general counsel on 
the U.S. Armed Services Committee. Without objection, the 
witnesses' full prepared statements will be made part of the 
record.
    Members will have 5 calendar days to submit any statements 
or questions or any extraneous material they might want to 
submit for the record and I'd like to remind everyone including 
our witnesses that willful misrepresentation or false 
statements by a witness is a criminal offense under 18 U.S. 
Code Sec. 1001.<greek-l>Listened to video--was cut off deg.
    Indeed, that is the case for all of our hearings and 
Special Envoy Wolosky, please summarize your remarks.

  STATEMENT OF MR. LEE WOLOSKY, SPECIAL ENVOY FOR GUANTANAMO 
               CLOSURE, U.S. DEPARTMENT OF STATE

    Mr. Wolosky. Thank you very much, Mr. Chairman, Ranking 
Member Engel, distinguished members of the committee. Good 
morning.
    I appreciate your inviting me once again to appear before 
this committee. I look forward to continuing our discussion in 
closed session either later today as we have offered or as soon 
as possible so that we can have a fuller discussion of some of 
the classified topics we know are of interest to the committee.
    Altogether, a total of 779 detainees have passed through 
Guantanamo and of those 700 have departed. The vast majority of 
detainees transferred out of Guantanamo to other countries--
some 532--were transferred by the administration of George W. 
Bush. Under President Obama, a total of 159 detainees have been 
transferred. Today, 79 remain.
    President Bush acted to whittle the detainee population 
because he understood that, and I quote, ``the detention 
facility had become a propaganda tool for our enemies and a 
distraction for our allies.'' President Obama has continued 
detainee transfers for many of the same reasons. Of the 79 
detainees detained at Guantanamo today, 29 are currently 
approved for transfer. Detainees have been designated as 
approved for transfer during this administration through one of 
two rigorous interagency processes.
    First, soon after taking office, President Obama ordered 
the first ever comprehensive interagency review of all of the 
242 detainees then in U.S. custody.
    In 2009 and 2010, the Guantanamo Review Task Force, 
sometimes also called the Executive Order Task Force, which was 
comprised of more than 60 national security professionals from 
across the government, assembled all reasonable available 
information relevant to determining an appropriate disposition 
for each detainee.
    Then, based on the task force's recommendations, the 
Departments of Defense, State, Justice and Homeland Security, 
the Office of the Director for National Intelligence and the 
Joint Chiefs of Staff unanimously determined the appropriate 
disposition for each detainee: Transfer, referral for 
prosecution or continued law of war detention.
    Second, pursuant to Executive Order 13567, detainees who 
are not--who were not approved for transfer in 2009 and 2010 
could be subject to additional review by the Periodic Review 
Board.
    The PRB is comprised of senior representatives from six 
agencies and departments. None of the PRB representatives are 
political appointees.
    Having described how Guantanamo detainees have been 
approved for transfer, I would now like to briefly describe the 
process for transferring detainees.
    Decisions regarding whether, when and where to transfer a 
detainee are the culmination of another rigorous interagency 
process. The Department of State leads diplomatic negotiations 
with foreign governments regarding the transfer of Guantanamo 
detainees.
    But we are typically joined in our discussions by senior 
career officials from the Departments of Defense, Justice and 
Homeland Security as well as those in the intelligence 
community and on the joint staff. Generally, transfer 
negotiations occur in two steps.
    First, the U.S. Government obtains or reconfirms a 
political commitment that the potential receiving country is 
willing in principle to resettle or repatriate detainees and to 
impose various measures that will substantially mitigate the 
threat the detainees may pose after transfer.
    Second, we engage in technical discussions with foreign 
officials responsible for implementing these measures. These 
technical discussions offer the opportunity to tailor the 
integration and security measures to specific circumstances 
under consideration, to share best practices from previous 
detainee transfers and perhaps most importantly to determine 
based on an individualized assessment of these specific 
circumstances whether the statutory standard in the NDAA 
governing the foreign transfer of Guantanamo detainees can be 
met.
    Once we conclude that our diplomatic negotiations will 
result in a security framework that we assess will 
substantially mitigate the threat a detainee may pose after 
transfer, the Secretary of Defense consults with the 
Secretaries of State, Homeland Security and the Attorney 
General, the Director of National Intelligence and the Chairman 
of the Joint Chiefs of Staff on the transfer.
    Only after the Secretary of Defense receives the views of 
those principals and only if he is satisfied that the 
requirements of the NDAA are satisfied does the Secretary of 
Defense sign and transmit a certification to the Congress 
conveying his intention to transfer detainees.
    Ladies and gentlemen of the committee, let me close by 
saying that although we would obviously prefer that no former 
detainees engage in terrorist or insurgent activity following 
his transfer, we believe that the low rate of confirmed re-
engagement for detainees transferred since January 2009, under 
5 percent, is testament to the rigorous interagency approach 
the administration has taken to both approving detainees for 
transfer and to negotiating and vetting detainee transfer 
frameworks.
    I look forward to your questions.
    [The prepared statement of Mr. Wolosky follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Chairman Royce. Thank you.
    Mr. Lewis.

 STATEMENT OF MR. PAUL M. LEWIS, SPECIAL ENVOY FOR GUANTANAMO 
         DETENTION CLOSURE, U.S. DEPARTMENT OF DEFENSE

    Mr. Lewis. Chairman Royce, Ranking Member Engel, 
distinguished members of the committee, Representative Donovan, 
thank you for the opportunity to testify again regarding the 
administration's Guantanamo detainee transfer process.
    Secretary Carter has approved the transfer of 43 detainees, 
28 of whom have been transferred this year. Secretary Hagel 
approved the transfer of 44 detainees. Secretary Panetta, 7, 
and Secretary Gates, 65.
    During this administration, 159 detainees have been 
transferred. Mr. Chairman, we understand the importance of this 
issue to you and this committee and we appreciate the attention 
you have given to it.
    As I stated in March at the outset, I'd like to reiterate 
one continuing fundamental point regarding this detention 
facility. The President and his National Security Committee 
have determined that closing this detention facility is a 
national security imperative.
    Imperative is a strong term. The President in his 
leadership of the national security team believe that the 
continued operation of the detention facility weakens our 
national security.
    Closing Guantanamo is about protecting the country, not 
weakening it. As you know, the importance in closing this 
detention facility is echoed by former President George W. Bush 
and a long list of former Secretaries of State, Secretaries of 
Defense, Joint Staff Chairmen, and other former military 
leaders.
    As Representative Engel noted, a letter was provided to the 
committee by former flag officers, including a former 
commandant of the Marine Corps. Transfers from Gitmo are in the 
national security interest of the United States and are 
conducted in a safe and responsible manner.
    On March 23, 2016, I testified before this committee. 
During that hearing, as the chairman noted, I was asked whether 
the Department of Defense had ever knowingly transferred a 
detainee to a country that did not exhibit an ability to 
substantially mitigate the risk or control the individual.
    In response to that question, I stated that the Department 
of Defense had not conducted such a transfer. I stand by my 
response.
    We have addressed your concerns, Mr. Chairman, in the 
letter that we sent to you this week and I, again, apologize 
for the late response. But I want to briefly highlight several 
points.
    Here's our statutory framework: The 2016 NDAA requires that 
at least 30 days prior to any transfer and in addition to other 
requirements the Secretary of Defense certify to Congress that 
the receiving country has taken or agreed to take steps to 
substantially mitigate any risk that the individual could 
attempt to re-engage or otherwise threaten the United States. 
We have met that statutory requirement with each of our 
transfers.
    Prior to the transfer of any detainee to a foreign country, 
the United States Government receives security assurances from 
the receiving country regarding the actions that the receiving 
country has taken or agrees to take to substantially mitigate 
the risk.
    After the assurances are negotiated, the Secretary of 
Defense and his senior staff engage in a robust review process 
that considers many factors, including all of the intelligence 
that the government has regarding the threat posed by the 
individual detainee and the security assurances.
    Importantly, updated intelligence, medical, and compliance 
information is provided to each country regarding the detainees 
under consideration for the transfer. Many countries also take 
the opportunity to travel to Gitmo to interview transfer 
candidates.
    After full consideration of all this information, including 
a full and updated assessment from the intelligence community, 
the Secretary makes the determination to that I told you about 
earlier.
    As Secretary Carter has testified and Secretary Hagel 
testified, they take this responsibility very seriously. 
Secretary Carter has said he will not transfer a detainee that 
he does not believe is in the security interests of the United 
States to do so.
    These transfers have not been conducted in a vacuum, sir. 
Each transfer is formally notified to Congress and we regularly 
brief members and staff on transfers.
    With the notice of each transfer we offer to brief 
congressional leadership and members and staff of all the 
national security committees. I appreciate the opportunity we 
have had to regularly brief you and your staff regarding these 
transfers.
    Briefly, I think it is important to put these recent 
transfer decisions on foreign policy context for this 
committee. Many countries in the international community want 
to close Gitmo and have stepped up to help us.
    Specifically, over 30 countries since 2009 have accepted 
for resettlement Guantanamo detainees that are not nationals of 
their country.
    Additionally, there is sustained support for our closure 
efforts from civil society organizations, both domestic and 
abroad, including the Organization for American States. Even 
the Vatican has expressed the support for our closure efforts.
    In summary, each transfer is only approved after careful 
scrutiny by the intensive interagency review process and the 
negotiation of the security assurances sufficient to 
substantially mitigate any threat.
    Finally, I'd like to take a moment to again recognize the 
military service members who conduct detention operations at 
Guantanamo. These men and women continue to have our deepest 
appreciation for their service and the professionalism they 
display each and every day on behalf of our Nation.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Mr. Lewis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Chairman Royce. Thank you, Mr. Lewis.
    The last time you appeared before this committee we asked 
specific questions about the transfer of detainees to countries 
ill equipped to handle them.
    Specifically, we asked whether the Department of Defense 
ever transferred a detainee to a country that it knew was 
incapable of maintaining control of that individual and keeping 
him from returning to the battlefield. Mr. Lewis responded no, 
Mr. Wolosky stated that he was not aware of such an instance.
    Upon further review of your own intelligence assessments, 
those answers appear to be false. In fact, it appears that the 
administration has released dangerous terrorists to ill-
equipped countries on numerous occasions.
    On May 16, I wrote to your departments asking you to 
correct the record. You did not. The committee asked the 
administration to halt all transfers until you explained your 
testimony. You did not.
    In fact, you completely ignored the letter until we called 
this hearing and that is why we are here today. And I am going 
to ask you several simple questions and I'd appreciate a simple 
yes or no answer.
    Mr. Lewis, Mr. Wolosky, in your roles do you have access to 
intelligence assessments of detainees and transfer countries?
    Mr. Lewis. Yes.
    Chairman Royce. Do you review those intelligence 
assessments prior to the transfer of detainees to the custody 
of foreign governments?
    Mr. Lewis. Yes, sir.
    Mr. Wolosky. We review the intelligence assessments that 
are material to the issue before us, which is whether to 
transfer a detainee to a specific country under certain 
circumstances in order to be able to meet the statutory 
standard.
    Chairman Royce. Right. And in my May 16th letter I 
referenced three intelligence reports submitted to Congress 
pursuant to Section 1023 of the National Defense Authorization 
Act, those reports are dated May 31, 2013, July 15, 2014, 
August 6, 2015. Are you familiar with the content of those 
reports?
    Mr. Wolosky. Yes.
    Mr. Lewis. Yes.
    Chairman Royce. Are you aware that those reports contains 
assessments of each country to which the Defense Department has 
transferred detainees?
    Mr. Wolosky. Yes.
    Mr. Lewis. Yes.
    Chairman Royce. And are you aware that those assessments 
indicate that some countries lack the ability to control those 
terrorists?
    Mr. Wolosky. We cannot by law discuss classified Defense 
Intelligence Agency assessments in this session, Mr. Chairman. 
We're happy to do that in closed session.
    What I would point out to the committee is that in 
connection with each transfer we do rely on intelligence 
reporting that is broader than just DIA reporting and as I said 
it is tailored specifically to the issue of a transfer to a 
certain country at a particular point in time and is geared 
toward a determination or an analysis of whether the relevant 
statutory standard for transfers can be met.
    Mr. Lewis. Mr. Chairman, the reports you refer to are one 
of many reports we look at. We look at all source information 
from the intelligence community and as the Envoy has stated, 
the Secretary makes his determination looking at all the 
evidence that is available, the updated evidence, and in 
particular he makes his assessment after we overlay the 
security assurances to that country.
    So if the intelligence tells us that there may be a gap in 
capabilities that is what we negotiate the assurances for. So 
again, we look at those records, Mr. Chairman. But we look at a 
much broader array of records.
    Chairman Royce. I am going to explain to you, Mr. Lewis, 
that is not what you said here in March, all right. And in 
light of your familiarity with the intelligence reports and 
what is in those reports, I am just going to ask you again: Has 
the administration ever transferred a detainee to a country it 
knew was incapable of monitoring that individual or preventing 
him from traveling outside the country or otherwise keeping him 
from returning to the battlefield?
    Mr. Lewis. Sir, since I've worked for Secretary Hagel and 
Secretary Carter, every transfer has met the statutory 
requirement and it is my understanding that the administration, 
prior to my coming, transfer pursuant to the process that Envoy 
Wolosky indicated and there are no transfers that I am aware of 
that did not meet the statutory requirement.
    Chairman Royce. I don't think you can just wish away 
intelligence reports that raise grave concerns, reports that 
you chose to deny when asked about them in our last hearing.
    But if you're now saying that the intelligence reports 
are--I assume the implication here--incomplete, then I have to 
say from what we can tell the President has made a political 
decision to close Guantanamo no matter what the cost to 
national security based upon our experience, based upon our 
discussions which go on for some considerable time now in terms 
of the warnings from us on this committee about the five 
individuals who were transferred to Uruguay and their 
subsequent conduct and now the fact that one of them has been 
released.
    That can be the only reason why these intelligence 
assessments are being pushed aside, in my judgement. And it 
appears that the assurances that you got from Uruguay didn't 
account for anything.
    This fellow, Jihad Diyab, walked right out of Uruguay. We 
have no idea where he is, and if that country is telling you 
that they won't prevent their travel, which is what I pointed 
out to you, then we'd better listen.
    If they are not going to prevent their travel then it is 
not a surprise what subsequently has occurred. So Mr. Wolosky, 
you have briefed this committee several times about Uruguay. 
You have told us repeatedly that the Government of Uruguay was 
capable of handling these terrorists.
    In fact, you testified on March 23rd that ``we are 
confident, to your question, that the Government of Uruguay is 
taking appropriate steps to substantially mitigate the risk 
associated with each of the six detainees that have been 
transferred to its custody.'' That turned out to be wrong, as 
I've pointed out.
    Jihad Diyab has now escaped. Now, the other point I would 
make out may make to you, and this also goes to some of the 
conversations he's had, is that I am aware this was the third 
time he left Uruguay and nobody knows where he is.
    The media is reporting that he could be on his way to Syria 
or Yemen. And I would just like to ask: Why did you provide 
false assurances to Congress? Why did you mislead us about 
Uruguay's capabilities? Because I made it very clear to you our 
concerns about Uruguay's capabilities. They were pretty up 
front.
    Mr. Wolosky. Mr. Chairman, I strongly disagree with any 
suggestion that I misled this committee. In fact, I stand by my 
testimony from March in which I affirmed that Uruguay had 
committed to and is in fact taking steps to substantially 
mitigate the risk of the six detainees that were transferred to 
its custody in December 2014.
    While we would have preferred that Mr. Diyab remained in 
Uruguay, if in fact he is not in Uruguay currently, until the 
expiration of the 2-year resettlement program that was the 
subject of the agreement reached with Uruguay and reached with 
him, frankly, the fact is is that the standard is not 
elimination of risk.
    It is mitigation of risk, and we never represented to this 
committee that there was a travel prohibition.
    What the President's closure plan describes generally, and 
I cannot get into this forum--into the specific assurances 
provided by the Government of Uruguay, but what the President's 
plan describes are travel restrictions.
    The President's plan describes specifically the withholding 
of international travel documents.
    Now, there are a number of additional steps that we take 
and our partners take to restrict travel and to monitor travel. 
I cannot go into those in an open session.
    I am happy to describe them to you even in this specific 
context of Uruguay in a closed session. But I cannot do it 
here.
    Chairman Royce. But let me explain this simple fact to you. 
When a country tells you that they won't prevent a terrorist 
from traveling then you had better listen if your intention is 
to release that terrorist into that country.
    But my time has expired. I will go to Mr. Eliot Engel of 
New York.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Lewis, let me start with you. In a hearing before this 
committee in March you discussed the issue of former Guantanamo 
detainees killing Americans.
    According to White House Press Secretary Josh Earnest, none 
of the former detainees who have gone through a screening 
process implemented by this administration in the 2009 have 
harmed Americans.
    To quote Mr. Earnest, from March of this year, and I quote 
him, ``No one who's been released from prison at Guantanamo Bay 
on President Obama's watch has been implicated in violence 
against Americans.''
    So I would like to ask both of you: How has the Obama 
administration changed the detainee transfer process from the 
process used before President Obama took office, or has he not 
changed it?
    I understand it is been changed. How have these changes 
helped prevent former detainees from harming Americans? So why 
don't we start with you, Mr. Wolosky?
    Mr. Wolosky. Sure. Thank you, Congressman Engel. Five 
hundred and thirty-two detainees from Guantanamo were released 
under the administration of George W. Bush. The fact is that we 
can't tell you much about the circumstances under which they 
were released.
    We can speak to what our administration has done and what 
we understand to have been the process in the previous 
administration.
    So first, we engage in a rigorous interagency evidence-
based process reliant predominantly on career government 
officials to determine first if a detainee may in principle be 
designated as approved for transfer.
    That's the first step. This is an interagency process that 
includes many career professionals throughout the government 
and as I describe in my testimony in this administration there 
are actually two separate processes at various points in the 
administration to first determine whether in principle a 
detainee may be safely transferred, subject to security 
assurances.
    Second thing we do, very carefully, is we negotiate for 
detainees who have been approved for transfer specific security 
assurance packages consistent with local law in the places that 
we transfer these detainees to and after obtaining a political 
commitment from the country in question that under the 
circumstances in question the measures to be put in place by 
the country--monitoring, travel restrictions, information 
sharing, integration planning--will mitigate substantially the 
risk that that particular detainee may pose.
    That's what we do, and what we have done, as I said in my 
opening statement, has reduced the re-engagement rate, the 
confirmed rate to under 5 percent. It's much higher in the 
previous administration.
    We believe that that reflects the fact that the things that 
I just described simply weren't done in the previous 
administration. But that is what we have done. Thank you.
    Mr. Lewis. Mr. Engel, it is a more rigorous process. The 
process in the previous administration was only DoD--primarily 
only DoD, as Envoy Wolosky has said, this is interagency.
    When the Obama administration took office there were about 
240 detainees at Gitmo. We took a fresh look for over a year at 
all those detainees and decided three categories--those that 
could be eligible for transfer with appropriate security 
assurances to the proper country, those that they wanted to 
refer for prosecution to take a look at prosecution, and those 
that merited continued law of war detention.
    I say it is more rigorous because as Lee said, there's a 
broader group of career professionals and some political but 
primarily career professionals, intelligence folks, career 
prosecutors, who looked at these cases.
    They also looked at a broader array of evidence. They 
looked at all the evidence that the USG possessed whereas the 
previous process was primarily DoD evidence.
    And then as we know, Congress weighed in. We now have the 
statutory overlay for all transfers. So the bottom line is, as 
Lee said, it is a much more rigorous and intensive process.
    Mr. Engel. Thank you. You know, I think it is important to 
put it into context because, look, even one prisoner escaping 
is one prisoner too much. So we are not going to say that 
anything is foolproof.
    Nothing is foolproof. But I think that if we look and see 
what the administration has done and the safeguards that they 
have tried to put in, I feel that we are absolutely doing our 
best and in fact it is a big improvement than the previous 
administration.
    So let me ask you this. We've heard a lot about the 
challenges of closing Guantanamo. It is true that some former 
detainees have re-engaged. I know the chairman is very upset 
about it and so am I.
    But can you help put those cases into context? What are the 
costs of keeping this facility open and how would halting the 
transfer of cleared detainees affect terrorist recruitment and 
propaganda and coalition efforts to degrade and defeat 
terrorist organizations?
    Mr. Lewis. Sir, there are three costs. It's primarily--it 
drains our expenses, it is wildly, wildly expensive. We can do 
it cheaper in the United States.
    More importantly, for this committee, our allies want us to 
close<greek-l>d deg. Gitmo. It hurts us with the international 
community. In my previous testimony and in my opening statement 
I outlined indications in which members of the previous 
administration at the Department of State said Gitmo hurt us 
and I believe it is a propaganda and recruiting tool. President 
Bush said that. Many others have said that.
    The bottom fundamental point is we want to protect the 
country and the national security leadership of this 
administration, President Bush and many people in his 
administration, numerous Secretaries of Defense, numerous 
Secretaries of State, the prior military officials that we 
talked about including a commandant in the Marine Corps, have 
said the cost of Gitmo outweighs the benefit.
    It hurts us. It hurts us with the international community. 
It hurts us with our taxpayer money and it is a recruiting 
tool. The President has made this decision and the national 
security community leadership has made this decision. Lee?
    Mr. Wolosky. Sure. Thank you. First, I agree with the 
Special Envoy's comments and I do feel compelled just to 
address this notion of terrorists escaping and prisoners 
escaping and things of that sort.
    Just to remind the committee that the individuals that we 
are talking about were held in law-of-war detention by the 
United States. They were lawfully held under law-of-war 
detention.
    But they weren't convicted of crimes. When we transfer them 
to foreign countries we transfer them subject to security 
assurances such as travel restrictions. This is what this 
administration does. The previous administration did not do 
this.
    There are a large number of detainees of the 532 
transferred in the previous administration, certainly, that 
weren't even subject to the travel restrictions that we put in 
place on these individuals.
    But, again, just want to make sure that we are getting the 
terminology right because escaping connotes incarceration. When 
we transfer individuals who the U.S. Government writ large has 
concluded may be transferred subject to security assurances 
they are transferred subject to those security assurances and 
at that point they are not prisoners. They are former detainees 
under supervision.
    Mr. Engel. I will stop now because I know my time has run 
out. But I wanted to--you know, the thing that irks the 
chairman and, in fact, frankly, irks all of us is the fact that 
this person was sent to Uruguay, and Uruguay, apparently 
doesn't have the ability to monitor this person who now has 
left the country. Just briefly, could you talk a little bit 
about the case or do you need to do it in a classified setting?
    Mr. Wolosky. On the issue of foreign countries' 
surveillance capabilities, I would need to discuss that with 
you in closed session and I welcome the opportunity to do so so 
that you may be informed about what those capabilities are and 
what they aren't and how they were used and applied in this 
instance.
    Mr. Lewis. I echo the Envoy's comments. We would appreciate 
the opportunity to discuss this in detail. What I can tell you 
is we talked to the Uruguayan authorities on a regular basis. 
We regularly review intelligence. We regularly look at this and 
Secretary Hagel, who you know is a very forceful, careful, 
deliberate person, signed the congressional notification saying 
he felt that Uruguay could substantially mitigate any threat by 
this detainee. Again, we are happy to discuss this in closed 
session.
    Mr. Engel. I would like to do that in closed session. So I 
am sure we'll make arrangements to do that. Thank you, Mr. 
Chairman.
    Chairman Royce. We'll make arrangements to do that. At the 
same time, at the end of the day, the Uruguayans gave them the 
travel cards. Gave them the travel card to travel. At the end 
of the day, he walked right out of there three times and this 
time nobody can locate him to get him back into custody and 
he's an al-Qaeda-linked terrorist. Anyway, I'll go to Ileana 
Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce, for 
calling this hearing and for continuing to demand transparency 
and accountability from the administration regarding its plans 
for naval station Guantanamo Bay and the detention center.
    As you point out, Mr. Chairman, the administration has not 
been forthcoming with the American people about the release of 
dangerous terrorists to various nations. The reality is that 
the situation is far different than what we've been told.
    So I continue to ask myself why does a nation like Uruguay, 
why does a nation like Ghana, why does a nation like Senegal, 
as so many others, why would they want to take in these 
dangerous terrorists unless they believe that the benefits 
outweigh the risk? Unless the administration convinced them 
that the benefits outweighed the risk.
    And not only that, we are talking about a high-risk, high-
threat individual and that person has experience in evading 
authorities, will conduct operations, going to nations that 
have limited intelligence that do not possess the most 
sophisticated monitoring system.
    That was obvious with the Uruguay transfer. And we are to 
believe that the terrorists will not use that to their 
advantage? That they will be properly overseen? It would 
probably take them just 1 day to realize how lax the security 
is in Uruguay, for example.
    So it is not a surprise, I think, to any of us that one of 
these individuals managed to flee Uruguay, where we now know 
that his movement was not required to be restricted, to Brazil 
and from there from who knows.
    As the chairman said, he may be en route to Syria or there 
already. So I would ask you if it is possible to get a yes or 
no answer, has the administration promised any of these 
countries, whether it is Uruguay, Ghana, Senegal, whatever, 
cash for taking in these individuals and if so how much, how 
often, and to which countries?
    Mr. Wolosky. Congresswoman, we have provided de minimis 
resettlement assistance to certain countries to support 
expenditures such as language training, vocational training, 
things of that sort.
    That is fully disclosed to the Congress in the 
congressional notifications that you receive.
    Ms. Ros-Lehtinen. And if you could refresh my memory for 
Uruguay, for example, how much would that country have gotten 
for language and to the other----
    Mr. Wolosky. I can't tell you off the top of my head but we 
are happy to provide that information to you supplementally.
    Ms. Ros-Lehtinen. I will get the notification--refresh my 
memory. Has the administration offered any other favorable 
agreements or offered to support these countries on other 
related matters in exchange and if so what kind of exchanges?
    Mr. Wolosky. Nothing financial beyond what is in the 
congressional notifications. Anything related is a broad 
category.
    I can say generally in open session that many of our 
partners do view a detainee transfer as an opportunity to 
deepen security and counterterrorism and intelligence 
cooperation with the United States. We generally welcome that 
and we look to facilitate that interest where it exists.
    Ms. Ros-Lehtinen. And has the administration provided 
military equipment or military training in exchange for taking 
in a detainee and if so to what extent and to which 
governments?
    Mr. Wolosky. No, not to my knowledge. Paul?
    Mr. Lewis. Ma'am, that is something we'd have to talk about 
in a closed session.
    Ms. Ros-Lehtinen. Like night vision goggles or something 
like that?
    Mr. Lewis. Again, the negotiation of the security 
assurances is very detailed and complex and to discuss any 
specifics I'd have to talk to you about that in a closed 
session and we are happy to do so.
    Ms. Ros-Lehtinen. Has the administration provided 
intelligence equipment or training or promised or offered 
intelligence sharing to any government in exchange for 
accepting a detainee and if so to what extent and which 
governments?
    Mr. Wolosky. We would have to talk about intelligence 
matters in closed session.
    Ms. Ros-Lehtinen. So it seems to me that the absence of any 
of these agreements wouldn't need to be discussed in a 
classified setting. So, I mean, unless you say no to these 
questions I think it would be fair to assume that at least some 
of this has been happening, is happening.
    Is it the intent of the Obama administration to continue to 
release all but a handful of the most dangerous detainees in 
order to then say to Congress, well, why keep Gitmo open when 
we have such few detainees there? As if President Obama had not 
had anything to do with clearing out the number of detainees in 
the first place.
    Mr. Wolosky. We intend to continue essentially the policy 
of the previous administration to transfer detainees that we 
conclude may be safely and responsibly transferred outside the 
custody of the United States in accordance with applicable law.
    Ms. Ros-Lehtinen. Would it be fair to say that from now 
until the end of this Presidency that we would be seeing more 
and more detainees being released--five, 12, two--until there's 
just a handful and say hey, look at all this wasted money for 
just a handful of folks, when you're the ones pushing them out?
    Mr. Wolosky. We have 29 detainees who are approved for 
transfer and our intention is to work to transfer those 
individuals subject to security assurances.
    Ms. Ros-Lehtinen. Thank you. Well, as you know, there's a 
great deal of resistance about having them come to the United 
States. Thank you so much, Mr. Chairman.
    Chairman Royce. Thank you, Ileana Ros-Lehtinen.
    We go to Mr. Brad Sherman of California.
    Mr. Sherman. Okay. I would like to comment on this over the 
next 5 minutes and I'll probably offend both political parties. 
The prior administration did release more terrorists than the 
current administration.
    More of those released by the prior administration have 
been caught fighting us on the battlefield. The fact is, much 
as we like to fight as Democrats and Republicans, the policy 
has been the same in both administrations.
    House them only in Guantanamo because we don't have the 
political guts to house them here in the United States and 
release as many as possible--far too many, far too quickly, and 
massively understate the costs of the release.
    We are told that it is wrong to keep them there for the 
duration of the war because the war has lasted too long. That 
is their fault. They waged war against America and no, we never 
guaranteed them that the war would be short. The purpose of 
incarcerating POWs is not only to keep them off the battlefield 
but to deter their comrades.
    When we tell the terrorists around the world if you get 
caught you'll get released while the war is still going on, we 
encourage their recruitment.
    Now, we are told that there are only 12 identified 
circumstances when Americans have died because of this release. 
That is such a massive undercount. First of all, when we 
release somebody and they rejoin the battlefield, do they send 
us a report?
    Are they listed on LinkedIn? New status, rejoined the 
terrorist movement? And then when one of them at least--when an 
American dies on the battlefield do we get a report from the 
terrorists, here's a list of the people who killed him--here's 
a list of the people who provided them with logistics--here are 
the people that provided the recruiting--here are the people 
that provided the financing?
    So I would--unless we are certain that one of these 
released people is being monitored and is not doing anything to 
help the terrorists we have to assume that they are waging war 
against us as they did before and the cost of release is also 
the incredible concessions--Ileana Ros-Lehtinen brought this to 
our attention.
    All the winks, all the nods. Every country in the world, 
especially small countries, no. Take one detainee. The 
President of the United States is personally indebted to you 
and when you've got a fishing concern or if you're seeking 
something from the United States now or later, the answer is 
yes. We'll never get an accounting of that because you can't 
account for the winks and the nods.
    Now, we are told that Gitmo is a--that we get a tremendous 
propaganda advantage if Gitmo is closed. Of course, we only 
partially closed it.
    We have no propaganda advantage. It's still a symbol the 
other side can use as long as it is open with one detainee. But 
we could bring these prisoners to the United States. That does 
not enhance their legal status.
    The Supreme Court has ruled in the Boumediene case and the 
Hamdan case that they have just as many legal rights there as 
they would here.
    But we--here's an America where we accepted nuclear bases 
in our States knowing that they were targets for the Soviet 
Union and now we can't even accept a prisoner and we whip up 
all this fury.
    We have 443 convicted terrorists in American prisons right 
now. I'll ask our witnesses to raise their hands if they are 
aware of any of those that escaped. I see no hands going up. I 
am not aware and I've researched this.
    We've got Moussaoui, we've got Tsarnaev, we got the shoe 
bomber, the underwear bomber, the World Trade Center in 1993 
bombers, the Oklahoma City bomber, and the Unabomber, and we 
are trying to bring to the United States El Chapo, who escaped 
Mexican prisons twice.
    We can incarcerate people here and obtain the political 
advantage that we are told can be achieved by shutting down 
Gitmo. But instead we constantly vote on ways to not do it. If 
the legal rights of these POWs in the United States is too 
great if they are on U.S. soil, that is the fault of Congress. 
We can pass laws identifying that these are POWs.
    They're nonuniformed enemy combatants and entitled to less 
protection than those who would wear uniforms fighting against 
us. So we've got a lot of dead Americans as a result of this 
catch and release program.
    We've got one party who says we can't house them here, 
although we are able to house terrorists here in our prisons, 
and we've got another political party so anxious to shut things 
down that we massively understate the cost of releasing, and I 
yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Sherman.
    Mr. Issa of California.
    Mr. Issa. Thank you, Madam Chair.
    I would just like to bring us up to speed in one area. Is 
it true that under current law, closing Guantanamo is 
prohibited? This isn't a trick question.
    Mr. Wolosky. I don't think that current law prohibits 
closing Guantanamo. I think that what current law prohibits is 
the expenditure of money to move detainees at Guantanamo into 
the United States.
    Mr. Issa. Okay. So under current law you can close 
Guantanamo by releasing the prisoners. You just can't bring 
them here. That's your assessment?
    Mr. Wolosky. I believe the current law prohibits detainees 
from being brought into the United States.
    Mr. Issa. Okay. So the reason that you both have titles 
that say Special Envoy for Guantanamo Closure is because your 
job is to close Guantanamo. Is that right?
    Mr. Wolosky. Sir, that is correct.
    Mr. Issa. Okay. So now I just--I got a yes and that is far 
enough.
    Mr. Lewis. Sir, my title is Guantanamo Detention Closure. 
We're not closing the naval facility.
    Mr. Issa. No, I understand that the President who loves 
Chavez--or loves the Castros enough to open up relations--has 
not decided to give back what we have in perpetuity. So we'll 
leave that aside.
    Your job is to close the detention. You are working toward 
that. I just want to ask one or two fairly simple questions.
    It's been said many times on both sides of the dais that 
President George W. Bush's administration released more 
prisoners actually than you inherited, right? He released more 
than you have?
    Mr. Lewis. Yes.
    Mr. Issa. Okay. And during that time it has been discovered 
and during this administration it has been discovered and made 
public that in fact some released by the Bush administration 
went back and killed Americans on the battlefield in 
Afghanistan and other places. Is that correct?
    Mr. Lewis. Yes, sir.
    Mr. Issa. So George W. Bush released more prisoners, 
attempted to vet them, was wrong. They went back, they killed 
Americans on the battlefield and we know it and the public 
knows it, right?
    Mr. Lewis. Yes, sir.
    Mr. Issa. Okay. So George W. Bush's failures are now very 
public. They released people who went back and killed Americans 
on the battlefield. Okay. Like Mr. Sherman, that is not 
necessarily with my party.
    This President has released many additional people who have 
returned to Afghanistan. Are you prepared to say that none of 
them killed Americans?
    Mr. Wolosky. You're talking about Guantanamo detainees----
    Mr. Issa. Guantanamo.
    Mr. Wolosky [continuing]. Returned to Afghanistan in 2009?
    Mr. Issa. Guantanamo detainees released after 2009 who in 
fact went back and killed Americans.
    Mr. Wolosky. The assessment of the intelligence community 
is that no detainees released since 2009 during this 
administration are responsible for the deaths of Americans.
    Mr. Issa. So your public statement is that no detainees 
released by this administration have killed Americans on the 
battlefield as of today?
    Mr. Wolosky. Correct.
    Mr. Issa. Okay. I just want to make sure I have it on the 
record because I don't believe it. But you can say it and 
you're under oath and I believe it that you believe it.
    So I just want to make sure we understand. We're sitting 
here and somehow President George W. Bush early on, releasing 
the less dangerous, the easier to vet, the less likely to be a 
hardened criminal terrorist--terrorists, not criminals--they 
were released. They killed Americans. You're releasing people, 
they are not killing Americans. How do you account for that? Is 
this rehabilitation that you've done?
    Mr. Wolosky. Sir, there are a lot of factual predicates 
embodied in your question that would require some correction.
    Mr. Issa. Well, President Bush released people. They killed 
Americans. You released people. They didn't kill Americans on 
the battlefield. How do you account for that difference that 
you've said under oath?
    Mr. Wolosky. As I indicated in my testimony submitted for 
the record, we have put in place procedures that are 
comprehensive, they are rigorous, they are interagency in 
nature and we believe that, as a result, those procedures have 
contributed to the very substantial reduction in the re-
engagement rates seen between both administrations.
    Mr. Issa. Okay. Well, let's do that. You've used procedures 
that have limited re-engagement. But it hasn't eliminated re-
engagement, correct?
    Mr. Wolosky. That's correct.
    Mr. Issa. So you've released people after 2009. They have 
re-engaged. They're back on the battlefield attempting to kill 
Americans, right?
    Mr. Wolosky. It is not correct to say that anyone who has 
re-engaged under the definitions used by the intelligence 
community for confirmed or suspected re-engagement is back on 
the battlefield.
    Again, I am happy to talk or, better yet, the intelligence 
community can speak to the committee about the standards that 
are used. But it is an overstatement to say that an individual, 
for instance, who has been suspected of re-engagement is on the 
battlefield seeking to do harm to coalition forces.
    Mr. Issa. Okay. But I just--you know, it is just one of 
these things that I think in a very public--it is not--this is 
not something that needs to be privately discussed. It's 
something--now, Madam Chair, if I can have 30 more seconds. My 
predecessors did.
    People that were released under Bush re-engaged and killed 
Americans. You'll have us believe in a public environment that 
although people released under this administration were more 
hardened criminals--these were the people that were in fact not 
released under Bush because he thought they were too dangerous. 
They've been released. You're saying in a public forum that 
they re-engaged but you're saying nobody died.
    Mr. Wolosky. Sir, again, it is incorrect to assume that 
individuals released under Bush are less dangerous or more 
dangerous than released during this administration.
    Again, this would require a rather long discussion about 
why, for instance, the overwhelming preponderance of the 
detainees who were approved for transfer or who remain in 
Guantanamo today are from Yemen.
    So it is just simply not correct to make blanket 
assessments about who is more or who is less dangerous or, 
frankly, what the procedures--you keep talking about vetting 
done by the Bush administration.
    Again, we are not aware of the type of vetting that was 
done in that administration. So, again, there are a lot of 
premises embedded in your question.
    Mr. Issa. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you. Thank you, Mr. Issa.
    Mr. Duncan of South Carolina I am sure will follow through.
    Mr. Duncan. Do you need some more time, the gentleman from 
California?
    Mr. Issa. Thirty more seconds.
    Mr. Duncan. You're yielded 30 seconds.
    Mr. Issa. Thank you. I just want to understand. We have 
heard endlessly that the Bush administration released people 
and they went back on the battlefield and President George W. 
Bush and his administration have to live with the fact that 
they thought these people could be safely released back to 
Qatar and to other countries and in some cases they were wrong.
    But you continued to work toward closure by release back to 
these countries, Yemen being a particular area of concern, and 
I just want to make sure the American public hears in an open 
session that you believe that you have been flawless in that no 
Americans have died because of people released on this 
President's watch and you've said that.
    So I want to thank the gentleman that was very kind to let 
me recap.
    Mr. Duncan. Thank you, and thanks for your approach to 
everything, Chairman Issa.
    I first off want to apologize to the lady with the 
Department of State for coming across abrasive about another 
issue and I thank you for your help on that other matter.
    We have established the fact that one of the Uruguayan Six 
has disappeared. We've also established the fact, I think, that 
there are certain requirements and parameters that must be met 
before detainees are transferred to a third country.
    Uruguay told us--well, first off, Uruguayan law prevented 
intelligence monitoring and mitigation and former President 
Mutica said publicly that his government would place no 
restrictions on the movements of the six detainees that were 
released to Uruguay.
    Later, we had their chief intelligence officer proudly 
inform the U.S. Embassy that these Uruguayan Six--the Gitmo 
Six--would not be restricted in any way and that he was not 
authorized to conduct monitoring or surveillance.
    But if we go back to the requirements that have been talked 
about numerous times here this morning, surveillance and 
monitoring and some assurances were part of the deal.
    So America needs to understand that one of the six 
detainees captured on the battlefield, al-Qaeda operatives 
captured either in Tora Bora or Afghanistan, has disappeared. 
Uruguay, Brazil, United States at this point have no idea where 
this individual is.
    Now, this individual that we are talking about, Jihad 
Diyab, is a forger. He was responsible for forging documents, 
passports, travel documents for al-Qaeda terrorists. He's now 
disappeared into Brazil.
    So let's take it to the 30,000-foot level and think about 
Brazil in general. We've got an area in Brazil and Paraguay 
known as the tri-border region. A lot of folks are transiting 
through Latin America through an area known as the tri-border 
region.
    They're coming to South America, to that area, often times 
on fake passports--not necessarily forged passports, they are 
just passports that don't belong to them. And they are 
exchanging those documents in that region for other false 
documents and trying to transit through Latin America to get to 
America, to get to the United States.
    Case in point--five Syrians traveled to the tri-border 
region in Brazil on fake Israeli passports. The hypocrisy of 
that, I think is alarming, that Syrians traveled to the tri-
border region on fake Israeli passports, exchanged those 
documents for somewhere around $25,000 for fake Greek passports 
that they used to travel to Honduras.
    Apprehended in an airport in Honduras trying to come to the 
United States on fake Greek passports. So now we have a Gitmo 
detainee forger for al-Qaeda has escaped, disappeared, whatever 
you want to call it, into Brazil possibly to the tri-border 
region to assist others from the battlefield.
    ISIS operatives, possibly, coming to that area, exchanging 
documents, getting new forged documents or fake documents to 
possibly travel to the United States of America. But let's take 
it another step. There's a huge event getting ready to happen 
in Brazil known as the Olympics and that is a heck of a 
terrorist target, folks.
    So we've got an al-Qaeda operative who is a forger, who has 
escaped in Brazil or disappeared in Brazil who has the ability 
to forge documents and he's in a country that is getting ready 
to host the Olympics.
    I hope our counterterrorism efforts in Brazil, working with 
our allies there, are full bore.
    So I am going to ask, now that this gentleman has escaped--
he's gone missing, rather--is the Obama administration 
concerned about that?
    Mr. Wolosky. Sir, as I indicated previously, it would have 
been our preference that all six of the detainees transferred 
to Uruguay, stayed in Uruguay.
    Mr. Duncan. You've stated that. I asked you a question. Is 
the Obama administration concerned over Jihad Diyab's 
disappearance? Yes or no.
    Mr. Wolosky. As I said, I would have preferred that he 
stayed in Uruguay with the five other detainees through the end 
of the program, which was for another few months until December 
2014.
    If you're asking me what concerns me, frankly, it is the 
532 who were transferred during the previous administration. 
Without the----
    Mr. Duncan. We have established the fact that we all wished 
he would have stayed in Uruguay and would be right there with 
the other five. What I am asking you is the Obama 
administration concerned that he has disappeared?
    Mr. Wolosky. And I believe I've answered your question.
    Mr. Duncan. Mr. Lewis.
    Mr. Lewis. Sir, we are closely----
    Mr. Duncan. Okay. Knowing what you know now, will you 
publicly repudiate the Sloan letter about the Uruguayan 
concerns so the Uruguayan Government, who this administration 
tricked, I think, about these people, can finally begin 
monitoring and controlling the remaining five detainees? Will 
you repudiate the Sloan letter?
    Mr. Wolosky. We stand by the Sloan letter and we stand by 
the representations that we made to the Government of Uruguay 
at the time of the transfer.
    In fact, I believe that the Uruguayans told you, 
Congressman, when you visited, that they believed the United 
States had provided accurate information about each of the 
detainees transferred to their custody.
    Mr. Duncan. They did, and that contradicted some previous 
statements they had made publicly. So----
    Mr. Wolosky. Why do you think that is?
    Mr. Duncan. I am sorry?
    Mr. Wolosky. Why do you think that is?
    Mr. Duncan. We can go back through all of this.
    Mr. Wolosky. Why would they say one thing to you and 
another thing privately?
    Chairman Royce. Mr. Duncan, could you yield for a minute?
    Mr. Duncan. I can.
    Chairman Royce. I did want to put something in perspective 
for our witnesses here and it has to do with why the chairman 
of the Western Subcommittee would be upset here. And the fact 
is that the chief of intelligence in Uruguay explained to our 
committee, gave us the information that they were not allowed 
to monitor or surveille these six terrorists and the decision 
you made was to transfer them anyway.
    He made that observation to this committee prior to the 
transfer. You made the decision to transfer these six despite 
our warnings.
    The second point that is upsetting to him is that the 
intelligence chief was then dismissed from his position after 
warning us of that and subsequently warning us that they were 
casing--that they were outside our Embassy after their release 
and, again, that they were not allowed to monitor or surveille.
    Now we find ourselves in the situation--despite Jeff 
Duncan's admonitions and concerns and despite what we brought 
up at the prior hearing--we find ourselves in the situation 
where one of these six terrorists has indeed been able to walk 
out of Uruguay and no one knows where he is but we do know his 
attitude and this is the reason for our concern.
    But I thank Mr. Duncan for his trips and his work on behalf 
of the committee.
    Mr. Duncan. I want to thank the chairman for helping 
clarify that. The pattern is clear. We have been asking about 
these Gitmo Six and about the Uruguayans' ability to monitor 
them for a long time now and we have raised concern about 
events such as what we've witnessed in the last 60 days where 
one of the six has just disappeared who was an al-Qaeda 
terrorist.
    There's no doubt about it. He was a forger. And we are 
supposed to tell these countries that these weren't terrorists, 
they weren't engaged in attacking or hurting our allies or our 
United States military in any way. Very clear that he was.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. We go to Mr. Matt Salmon of Arizona.
    Mr. Salmon. Thank you, Mr. Chairman.
    Last time you were here, Mr. Lewis, you testified that 
Americans have been killed and I am going to piggyback on Mr. 
Issa and Mr. Duncan's questions.
    You subsequently notified the committee that those deaths 
occurred in Afghanistan by as many as 14 former detainees all 
who were released by the Bush administration and I'd just like 
to ask a few questions about that.
    How many Americans were killed? Were they U.S. servicemen 
and -women, civilians or both? What are their names and where 
are they from?
    Mr. Lewis. Sir, it is our understanding that there are 14 
and I can get you the specifics on that. I believe we've--the 
intelligence community can get you those specific details. But 
the number is 14. Many of the incidents were in large-scale 
firefights in a war zone.
    So we can't always distinguish whether Americans were 
killed by former detainees or other participants. But the 
intelligence community can get you the specific details that 
you asked for, sir.
    Mr. Salmon. Okay. And just to recap the specifics, I'd like 
to know whether they were servicemen or servicewomen or 
civilians or both and I'd like to know what their names are and 
where they are from. Those are the things I'd like and you can 
provide or get me all of that?
    Mr. Lewis. Yes, sir.
    Mr. Salmon. That'll be very, very helpful. And then just to 
piggyback on some of the other questions, knowing that there 
were casualties associated with those detainees to Afghanistan, 
you then as an administration decided then it was okay to still 
release detainees to Afghanistan? Is that correct?
    Mr. Wolosky. It may have been correct at the moment. I can 
assure you that each detainee transferred to Afghanistan or, 
frankly, anywhere else is subject to the review of the Chairman 
of the Joint Chiefs of Staff and I can tell you that the State 
Department would not concur in any transfer of a detainee to 
Afghanistan over the objection of the Chairman of the Joint 
Chiefs of Staff.
    Mr. Salmon. Well, prior to releasing detainees to 
Afghanistan, did the intelligence community assess that the 
Government of Afghanistan was incapable of maintaining custody 
and control of these individuals?
    Mr. Wolosky. The standard isn't maintaining custody and 
control because they are not transferred into custody. The 
standard is substantially mitigating the threat that they may 
pose and, again, these are determinations that would have been 
made in conjunction with and subject to the consultation with 
the Chairman of the Joint Chiefs of Staff if in fact they 
occurred in this administration. I believe that there have 
been.
    Mr. Lewis. Yes, Congressman, there have been transfers to 
Afghanistan and as Envoy Wolosky says, we do consult with the 
field commanders in Afghanistan prior to any transfer and, 
again, those transfers have been made under the statutory 
standard that any threat is going to be substantially mitigated 
by the host nation. So it is better to talk about this in a 
closed setting, sir.
    Mr. Salmon. But you did state for the record that one of 
your criteria for releasing them to Afghanistan was not 
monitoring. That's not a concern. You didn't care whether they 
were able to monitor or not?
    Mr. Wolosky. We can't speak to specific security assurances 
with specific countries in an open session. But what I can say 
is that any transfer to Afghanistan would have involved the 
consultation and concurrence of the Chairman of the Joint 
Chiefs of Staff.
    That's certainly what we do in all transfers, particularly 
in a place like Afghanistan. We at the State Department 
currently would not consent to any transfer to a place like 
Afghanistan unless the Chairman of the Joint Chiefs of Staff 
concurs in the transfer.
    Mr. Salmon. Well, Afghanistan is an active war zone and it 
is also one of the most corrupt countries in the world, and so 
I guess what a lot of us would like to better understand is if 
monitoring isn't part of the decision and making sure that 
their whereabouts are readily ascertained, I guess a lot of us 
wonder why that isn't one of the criteria.
    Thank you, Mr. Chairman. Yield back.
    Mr. Rohrabacher. The Chair now recognizes Mr. Weber.
    Mr. Weber. Thank you, Mr. Chair.
    Envoy Wolosky, is that how you're saying that?
    Mr. Wolosky. Yes, sir.
    Mr. Weber. Okay. You said that the standard was not the 
elimination of risk but a mitigation of risk in your earlier 
comments. Was that true under the prior administration as well?
    Mr. Wolosky. I don't believe so.
    Mr. Weber. So you all came in--the current administration 
came in with that in 2009, basically?
    Mr. Wolosky. Actually, the Congress came in with that. It's 
written into the NDAA. It's a piece of legislation passed by 
the Congress and signed into law by President Obama.
    Mr. Weber. So that was the standard that you used? That's 
pretty shocking what Congressman Duncan revealed, that we were 
told that Uruguay was not going to be able to monitor these 
guys' travel. There were six terrorists and I am not 
knowledgeable or privy to who they were. These were not the 
five that was released in exchange for Bergdahl. Is that 
correct?
    Mr. Wolosky. Correct.
    Mr. Weber. Is it fair to say that in the Bush 
administration didn't they attempt to try to release what was 
assessed to be the lower level risk combatants at first?
    Mr. Wolosky. I can't speak to that. I don't know what their 
process was.
    Mr. Weber. Is it fair to say in the current administration, 
that you chose to release the lower risk first and held the 
worse to the last?
    Mr. Wolosky. The worst we are not releasing. We're only 
releasing or transferring subject to security assurances those 
individuals who have been designated as approved for transfer 
by the six agencies and departments of the government that are 
responsible for those decisions.
    Mr. Weber. But common sense would probably dictate that the 
Bush administration followed those same guidelines?
    Mr. Wolosky. I don't think that that is a fair assumption, 
respectfully. One reason why it is not a fair assumption is for 
years we haven't released Yemeni detainees who in many cases 
are low-level fighters, if that, because of the circumstances 
in Yemen.
    So currently many of the detainees who remain in Guantanamo 
and who are approved for transfer are from Yemen and that could 
reflect more their nationality than their risk profile.
    Mr. Weber. That goes to the risk profile and I am sure, 
too. Now, the five that were exchanged for Bergdahl are they--
any of those back on the battlefield?
    Mr. Wolosky. No. I am just going to defer to my colleague 
from the DoD to speak to that transfer because it was an 
anomalous transfer, as you know, negotiated by the Department 
of Defense as a prisoner exchange.
    Mr. Weber. Okay.
    Mr. Wolosky. I am confident he will say no when he turns 
around.
    Mr. Weber. All right. Well, his time has passed. I am going 
to move to the next question. So there are countries who take--
who the administration negotiates with and we have a 
disagreement about whether or not they actually will monitor 
them or not.
    What number of countries do we look at for transferring 
these combatants to? Is it 6, 8, 26? How many countries are 
involved?
    Mr. Wolosky. We can get you the numbers but I believe we've 
transferred detainees in this administration to, what, 30 or 40 
countries?
    Mr. Lewis. We've resettled to 30 and then 9 repatriations 
back to their own country.
    Mr. Weber. Okay. So 30 countries. Are you monitoring? Are 
you able to track? You talked about--earlier in your comments 
you spoke with career government officials in making those 
assessments and those determinations. Career government 
officials on the United States side or on the prospective 
country side or both?
    Mr. Wolosky. I was referring to the U.S. side.
    Mr. Weber. U.S. side. Okay. So of those 30 countries where 
we are sending people whether or not they can monitor them 
effectively or not and you said you're getting feedback--we 
called it--I think it was information sharing. Is that in real 
time?
    Mr. Wolosky. It can be.
    Mr. Weber. It can be. But is it?
    Mr. Wolosky. In some circumstances that I am aware of it is 
in basically real time.
    Mr. Weber. Was it in real time on the guy from Uruguay that 
got loose?
    Mr. Wolosky. We can discuss that in closed session. I would 
welcome the opportunity to do that today if you would like to, 
sir.
    Mr. Weber. Okay. Okay. Of those 30 countries are you able 
to track in real time and even in retrospect are you able to 
track and say okay, this country did a good job of keeping up 
with their combatants, this country didn't, this country was 
okay, this country was lousy? Is there a scale of rating those 
countries and their abilities?
    Mr. Wolosky. I am not aware of a scale. Certainly, the 
case----
    Mr. Weber. So how do you know going forward in the future? 
If a country doesn't do a good job, how do you say well, we'll 
give that country another one or two or three? How do you 
determine that?
    Mr. Wolosky. By their record.
    Mr. Weber. Well, that would be a scale, wouldn't it?
    Mr. Wolosky. I don't think so. It would be specific to the 
performance of a particular country--their monitoring, their 
information sharing with the United States. If we are not 
satisfied with the results on a previous transfer we wouldn't 
transfer a new one to that same place.
    Mr. Weber. Okay. Well, that makes sense. And then of the 
discussion you had with Mr. Duncan and Mr. Issa, you talked 
about the--those released under the previous administration, 
Bush, and there was 530, I think, released, and how many is 
under the current administration?
    Mr. Lewis. 159.
    Mr. Weber. 159. So I don't think that you and Issa agreed 
on the fact that somehow Bush released the good ones and Obama 
released the bad ones. Is that a fair statement?
    Mr. Wolosky. That's correct.
    Mr. Weber. Okay. Would you say they were roughly equal?
    Mr. Wolosky. It's impossible to generalize. Each case is 
different.
    Mr. Weber. Well, that----
    Mr. Wolosky. What I was trying to do was to push back 
against the suggestion that Bush released the easy ones and we 
only have the hard ones.
    Mr. Weber. Right. But it is safe to say without----
    Mr. Wolosky. It is not an accurate characterization.
    Mr. Weber. Well, without the specifics you can't accurately 
know that. But in general, a reasonable person might make that 
kind of assumption?
    Mr. Wolosky. We are all about talking about specifics, not 
generalizations.
    Mr. Weber. Okay. Fair enough.
    Mr. Wolosky. That is why we are here. It is why we have 
requested the opportunity----
    Mr. Weber. Okay.
    Mr. Wolosky [continuing]. To speak with you in closed 
session because, frankly, a lot of what is said----
    Mr. Weber. Okay. Well, I am running out of time.
    Mr. Wolosky [continuing]. Including about Uruguay is just 
inaccurate and I am happy to tell you if you're interested in 
learning the facts about why some of what was said----
    Mr. Weber. Let me--let me--we'll come back to that, Mr. 
Wolosky.
    Mr. Wolosky [continuing]. In this hearing was inaccurate.
    Mr. Weber. Mr. Wolosky, I am out of time.
    Mr. Wolosky. I am happy to speak to it.
    Mr. Weber. Mr. Wolosky, I am out of time. Let me just say 
thank you for being forthright but we are on a time limit. I've 
got two quick questions.
    Mr. Lewis. Sir, can I make--can I make comment, though?
    Mr. Weber. Yes, sir. You may.
    Mr. Lewis. Thank you, Mr. Chairman. There are 29 detainees 
that are currently eligible for transfer who we believe we can 
transfer safely and responsibly if we get security assurances--
--
    Mr. Weber. Can I make a suggestion?
    Mr. Lewis. Yes, sir.
    Mr. Weber. Don't send them to Uruguay.
    Mr. Lewis. Sir, many of them are Yemenis. That's why they 
are there.
    Mr. Weber. Mr. Wolosky, back to you.
    Mr. Wolosky. Thank you, sir.
    Mr. Weber. You're welcome. At the end of the Uruguay 
program, you mentioned earlier that the guy got 3--2 months----
    Mr. Rohrabacher [continuing]. Your last question.
    Mr. Weber. All right. Two months early. Tell, for the 
committee's sake, what would an additional 2 months have done, 
in your opinion? Would it have rehabilitated that combatant? 
What would that have done?
    Mr. Wolosky. This individual, Diyab, frankly, was a problem 
from the moment he landed in Uruguay and I'll tell you that and 
be up front about it. His resettlement was difficult.
    He did not seem to want to participate in the opportunities 
that were being afforded to him by the government.
    Mr. Weber. Should we have had snap back sanctions in place, 
to use another term bantered around?
    Mr. Wolosky. We are not repopulating Guantanamo.
    Mr. Weber. Thank you. Mr. Chairman, I yield back.
    Chairman Royce. We go to Mr. Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Chairman Royce, and thank you for 
your leadership on this issue, and it is so important. I've had 
the opportunity to visit Guantanamo twice to see the personnel 
there, the professionalism of our military. And it is the place 
where terrorists should be.
    In my home State of South Carolina, we've learned a lesson. 
There was one terrorist at the Navy brig in Charleston. He's 
had a consequence.
    He's attracted more terrorists to come to the community and 
threaten attacks on the facility, putting schools at risk, 
neighborhoods in the immediate neighborhood at risk. It's 
utterly absurd the thought of bringing them to the United 
States in any way or releasing them, and it is interesting you 
say Yemen.
    You release people to Yemen, which was supposed to be an 
example of great success by this administration of establishing 
a stable country and within days of releasing and pardoning 
terrorists the country collapsed.
    And it would be interesting to know, what did happen to the 
persons who have been released to Yemen previously?
    Mr. Wolosky. We do not release individuals to Yemen.
    Mr. Wilson. Well, you had previously released before the 
collapse of the country. But there is a consistency here which 
is not good and the consistency is we have an administration 
that has dismissed ISIS as a JV--junior varsity.
    These are the same people after the announcement of junior 
varsity they committed mass murder in Jakarta, in Brussels, in 
Paris, in Orlando, in San Bernardino. We know the mass murder, 
this week, in Baghdad and in Kabul.
    Over and over again, there's been a dismissal of threats to 
American families. Additionally, it is incredible too this 
administration is very consistent by reaching a dangerous 
Iranian nuclear deal, providing tens of billions of dollars to 
a state sponsor of terrorism.
    Just last week, the funding that has been provided by Iran 
to Hamas there have been rocket attacks on Sderot in Israel. 
Again, it is extraordinary to ignore this.
    And then we come to pardoning and returning terrorists to 
go back on the battlefield. This is inconceivable and it is 
also quite illogical.
    As you talk about a recruiting tool, a recruiting tool is 
releasing people--not being serious about detaining people who 
have every intent to kill American families.
    And it is really interesting to me that they don't use the 
argument that it is a deterrent or it is a recruiting tool to 
have prisons within the United States. Of course, it is a 
deterrent.
    If people know they are going to be incarcerated they are 
less likely to commit a crime or kill American families. And I 
am really grateful that even CNN yesterday reported that U.S. 
officials have said the 44-year-old Abu Wa'el Diyab, a Syrian 
national, went off the radar several weeks ago in Uruguay where 
he was resettled in 2014, not prior to 2009.
    And so Uruguay's Interior Minister told CNN that Diyab was 
considered a refugee by the government and as such he would not 
need permission from Uruguayan authorities to leave the 
country.
    They said he would only need permission from the foreign 
country he wished to enter per an agreement with U.S. that 
enabled the release of Gitmo detainees to Uruguay.
    And there is a truth from CNN that I hope you look at and 
will reconsider that you are doing and that is that the 
disappearance could provide fuel for opponents of efforts to 
close the detention facility at Guantanamo, especially if Diyab 
is found to be attempting to join a terrorist group.
    Of the 676 detainees released from the detention facility 
as of January, 118 have returned to the fight. An additional 86 
are suspected of returning.
    A recidivism rate of nearly one out of three released, 
according to a recent report from the administration's Office 
of Director of National Intelligence.
    By releasing and pardoning these people, American families 
are at risk around the world and I just hope that you will 
reconsider what you're doing.
    And then I am really grateful, in the Washington Post, 
Gordon England, the former Secretary of the Navy--and he's an 
extraordinary public servant. He is a person of the highest 
integrity.
    He has warned that the process of releasing--the early 
process did work but that what's being done is that there were 
200 detainees when he departed, none have been approved for 
release. Under the President, more than half have been 
released.
    None of the low-risk, according to vigorous vetting, he has 
conducted during the Bush administration--statements by the 
country or the White House are misleading at best. And so I 
hope you will really reconsider and understand that we are in a 
global war on terrorism.
    This is not an academic exercise of deterrence or 
incarceration, and I yield my time.
    Chairman Royce. Okay. We go to Mr. Dana Rohrabacher of 
California.
    Mr. Rohrabacher. Thank you. Do any of you, either of you, 
know of cases--do you believe that Americans at Gitmo were 
involved with criminal mistreatment of the detainees?
    Mr. Wolosky. I am not aware of that.
    Mr. Rohrabacher. Okay. So but the President has made it a 
national security imperative that we close Gitmo and this, we 
are told, that he has to close Gitmo because it has such a bad 
reputation. But yet from what you just said we know that those 
charges are not true. Is that right?
    We have a propaganda campaign going on by the enemies of 
the United States and detractors of the United States against 
us, claiming that there was some kind of major criminal 
mistreatment of prisoners in Guantanamo and neither one of you 
know of an example of that or the fact is if there was one or 
two instances it certainly didn't reflect what was going on in 
Guantanamo, correct?
    Mr. Lewis. Sir, the issue is wrongfully so. There are many 
people around the world in many countries who think that there 
were things that went wrong at Gitmo.
    Mr. Rohrabacher. Right.
    Mr. Lewis. We don't believe that there were but they 
perceive that it happened.
    Mr. Rohrabacher. Well, let me correct it. Not only did a 
lot of people think that but there are people who hate our 
country who are promoting that knowing it is not true.
    Let's get this in your mind. This isn't nice American 
politics. This isn't a criminal matter, although the President 
would like to think of these terrorists as being American 
criminals, Americans who have made a criminal act.
    This is people who hate our way of life, they are engaged 
in an organized effort to terrorize Western civilization by 
murdering large numbers of noncombatants.
    Mr. Lewis. Sir, many of our----
    Mr. Rohrabacher. This is what we are trying to do. We are 
trying to handle this and what we get is a President who makes 
a national security imperative to give in to those people who 
propagandize and by doing that add some sort of credibility to 
whom?
    To the charge that our people who are working in Guantanamo 
are a bunch of ghouls who are torturing these people. I 
totally--yeah, there may be one or two instances where somebody 
lost their temper or did something wrong.
    But by and large, you know and we know that the prisoners 
in Guantanamo have been treated extraordinarily well. The 
President, by making it a national security imperative, has 
basically demonstrated that the propaganda, by people who hate 
us, will succeed and it will be seen and is seen as a sign of 
weakness by terrorists all over the world.
    This very act that we are talking about is encouraging 
those people who will murder noncombatants, especially 
Americans. Let's get back to the number of 532 released by 
Bush.
    Now, among those I know, for example, a lot of people were 
picked up. The Uighurs from Afghanistan had been picked up. 
They were in Afghanistan at the time of our operations. There 
were a lot of situations like that.
    Obama has released 159. I think it is a bit disconcerting, 
again, when this administration insists on treating these 
terrorists and those involved in terrorist activities as 
nothing more than criminals.
    You know, they are nothing more than like criminals would 
be in the United States. That's why, perhaps, the President 
finds it impossible to say the words ``radical Islamic 
terrorist'' because that is different than just some criminal 
who had committed an act of violence or murder in the United 
States.
    And by doing so, again, seeing as a weakness, the President 
is actually encouraging terrorists around the world to take 
advantage of this weakness, take advantage of the fact we are 
willing to retreat if you just have a propaganda campaign.
    I am glad to hear that we actually are suggesting that our 
guys didn't commit all sorts of horrible acts against these 
people. But of the 159 that were released--that have been 
released, what is disconcerting is when I hear that we don't 
have proof and it is been determined that this number of people 
have not--these people haven't committed any of these other 
acts after they've been released.
    I, like Mr. Issa, find that totally--it is absurd, it is so 
bad. The fact is that we--if we are waiting for evidence to 
prove before we can say well, we think it is probable that they 
have been involved because we know what kind of people they 
are, that is one thing.
    But what we are being told is unless we have overwhelming 
evidence that they have killed Americans or killed other 
innocent people, we are going to assume that they haven't.
    Well, this is a way--this is not watching out for the 
security interests of the people of the United States. This is 
projecting weakness. This is going to make sure that more 
Americans die if by nothing else giving in and having the 
President of the United States insisting on treating terrorists 
as if they are American criminals, which will do nothing but 
encourage terrorism overseas. Thank you very much.
    Chairman Royce. I thank the gentleman. We go to Mike 
McCaul, chairman of the Homeland Security Committee. Mike 
McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    You know, the President campaigned on a promise to close 
Guantanamo. Is it fair to say that that campaign promise will 
not be fulfilled?
    Mr. Wolosky. It's difficult to say. As you know, we are 
asking the Congress to reconsider its position on bringing a 
small number of detainees into the United States where, as you 
know, our Federal--as you know, better than most, Congressman, 
our Federal prison system has a 100-percent success rate in 
safely incarcerating over 400 convicted terrorists.
    Mr. McCaul. So but the current plan is to process 29 
transfers out of Gitmo, which would leave--I think there are 79 
detainees. That would leave 50, I guess, at Guantanamo, right?
    Mr. Wolosky. That's correct. You know, there are 10 that 
are in some phase of the military commission process and are 
being prosecuted or serving sentences.
    The Periodic Review Board process is ongoing so it is 
possible that the number of detainees who were approved for 
transfer will increase. But your round numbers are generally 
correct.
    Mr. McCaul. I've been down there. I saw Khalid Sheikh 
Mohammed, evil incarnate. So the 50 remaining--is it your 
intention to--we passed in the Congress under the National 
Defense Authorization bill an express prohibition against 
bringing these detainees into the United States.
    This administration will honor that legal restraint, 
correct? It will follow the law.
    Mr. Wolosky. As the President has said, his intention right 
now--his goal is to work with the Congress to change the law.
    Mr. McCaul. Okay. What is the status of the trial of Khalid 
Sheikh Mohammed?
    Mr. Lewis. It's in the motions phase, sir.
    Mr. McCaul. Why is this taking so long? I was a Federal 
prosecutor. This has been, you know, since 9/11.
    Mr. Lewis. Sir, I am a former Federal prosecutor as well. 
Other people are better placed to answer your question. But 
broadly, what I'll tell you is it is a new process so 
everything is new.
    There's no precedent. There are a bunch of very good 
defense counsels and the judge is being careful and 
deliberative. We have a very good chief prosecutor, General 
Martins, who's trying very hard. But it is just, you know, the 
law--to do the law carefully, as you know, sir, is a careful 
process.
    Mr. McCaul. Right. And I know defense counsel is filing a 
lot of motions. Pretty nice courtroom down there. There are 50 
detainees that will be left. How many of those will be facing 
military trials?
    Mr. Lewis. Right now, as Envoy Wolosky said, there are 
seven that are in the motions phase. The 9/11 five, the alleged 
Cole bomber and then one more al-Qaeda leader. There are three 
in the sentencing phase, and we are continually looking at the 
others to see if there can be a case. But I am not in best 
place to tell you where we'd be.
    Mr. McCaul. Getting back to those who you plan to release, 
we know 13 released have been implicated in attacks against the 
United States or coalition forces in Afghanistan, not a good 
number.
    Let me ask you this question. Has the administration ever 
refused to send detainees to a country because it could not 
provide adequate security?
    Mr. Wolosky. Absolutely. There are many countries that we 
look at that we ultimately determined are not suitable for 
this.
    Mr. McCaul. You mentioned a lot of these detainees you want 
to transfer out are Yemenis. Yemen is a failed state, in my 
judgement, and it is in a really bad state of affairs.
    You have the Houthis down there, Iranian forces. You have 
al-Qaeda in the Arabian Peninsula still plotting external 
operations against the United States. Can you tell me 
definitively you'll not be sending these detainees to Yemen?
    Mr. Wolosky. Yes.
    Mr. McCaul. Okay. That's a very good answer. What country 
would most likely receive them?
    Mr. Wolosky. I'd prefer to talk to you in closed session 
about that. I mean, what I will say, as you know, generally we 
prefer repatriations to resettlements because of cultural 
affinities, language skills, family connections. In this case, 
you know, that is not going to be possible for Yemen. So we are 
looking at other alternatives.
    Mr. McCaul. The last question--the Saudis have a pretty 
good deradicalization program. Have you considered that?
    Mr. Wolosky. Yes. In fact, we transferred a number of 
Yemenis, I believe, nine to Saudi Arabia in April.
    Mr. McCaul. Okay. I see my time has expired. Thank you.
    Chairman Royce. Thank you. Thank you.
    I want to get back to the issue of what you told this 
committee in March, just in closing here. We asked specific 
questions about the transfer of detainees to countries ill-
equipped to handle them and specifically we asked whether the 
Department of Defense ever transferred a detainee to a country 
that it knew was incapable of maintaining control of that 
individual and keeping him from returning to the battlefield.
    And Mr. Lewis responded no and Mr. Wolosky stated that he 
was not aware of such an instance. Your written response to the 
committee's letter, though, sent just this week states that the 
law doesn't prohibit us from sending detainees to countries 
that have partially derogatory intelligence assessments.
    Now, partially derogatory in common terms means can't 
contain or at least are seriously challenged in containing 
those terrorists. So why didn't you cite the law instead of 
suggesting to the committee that detainees were not being 
transferred to countries that were incapable of maintaining 
control of them when it is so clear that they are?
    That's the point I wanted to make. That is why this seemed 
to me like misleading the committee. And while I appreciate the 
witnesses' willingness to speak to us in a classified setting, 
which we'll take advantage of, that can't hide the fact that 
these issues can and have been discussed very productively here 
today.
    As you can see, we have serious concerns about this policy 
and we'll continue the conversation.
    But I do want to thank the witnesses and thank the members 
of the committee. The committee is adjourned.
    Mr. Engel. Thank you, Mr. Chairman.
    [Whereupon, at 12:06 p.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
